/",~.""

i4                               DEPARTMENT OF


                                        150
                                                  OF HEALTH
                                                     HEALTH &. &.HUMAN
                                                                  HUMA SERVICES
                                         OFFICE OF INSPECTOR GENERAL
                                            OFFICE OF AUDIT SERVICES

                                        150 S.
                                            S. INDEPENDENCE
                                                              SERVICES
                                                INEPENDENCE MALL
                                                                         SERVICES


                                                                MALL WEST

                                                                     WEST
                                                            316

                                                      SUITE 316
                                    PHILADELPHIA, PENNSYLVANIA 19106-3499

                                                                     19106-3499
                                                         FEB
                                                         FEB 1102009
                                                               0 2009

Report Number:
Report Number: A-03-06-00002
               A-03-06-00002

Mr. Bill Stack
Vice President &   & Controller
CareFirst of 
 of Maryland, Inc.
CareFirst
10455 Mill Run Circle
10455
Owings Mills, Maryland 21117

Dear Mr. Stack:

Enclosed
Enclosed is the is
                U.S.the  U.S.of Department of Health
                     Departent                                    andServices
                                                      Health and Human Human       Services
                                                                              (HHS), Offce of 
  (HHS), Office of Inspector
General
General (GIG),(GIG),     final
               final report       report
                            entitled "Review entitled
                                             of       "Review of CareFirst
                                                                       Care            Blue
                                                                              First Blue        Cross/B1ue
                                                                                         Cross/Blue Shield of Shield of Maryland
Medicare Part A Final Administrative Cost Proposals                Proposals for for Fiscal
                                                                                       Fiscal Years
                                                                                                 Years 20032003 -- 2005."
                                                                                                                   2005." We
                                                                                                                          We will
forward a copy of this report to               to the
                                                  the HHS
                                                      HHS action
                                                               action official
                                                                       offcial noted
                                                                                   noted on  on the
                                                                                                  the following
                                                                                                        following page for
                                                                                                                         for review
and any action deemed necessary.

The HHS action official will            wil make
                                               make final
                                                        final determination
                                                                 determination asas to
                                                                                     to actions
                                                                                        actions taken
                                                                                                 taken on
                                                                                                       on all
                                                                                                          all matters
                                                                                                              matters reported.
                                                                                                                       reported.
We    request
We request that youthat   you
                    respond      respond
                            to this            to this
                                    official within      official
                                                    30 days           within
                                                            from the date of                                  letter. Your
                                                                             30 days from the date of this letter.
response should present any comments or additional information that you believe may have a
bearng on
bearing      on the final
                        final determination.
                                determination.

Pursuant
Pursuant to the to  theofFreedom
                 Freedom  
                     Act, 5 U.S.c. §§ 552,
                                 of Information Act,             552, OIG
                                                                      OIG reports generally
                                                                                      generally are made
available to the public to the extent that information in the report is not subject to exemptions in
      Act. Accordingly,
the Act.                           report will
               Accordingly, this report   wil be posted on the Internet
                                                                Internet atathttp://oig.hhs.gov.
                                                                              htt://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Michael Walsh, Audit Manager, at (215) 861-4480 or through e-mail at
Michae1.Walsh~oig.hhs.gov. Please
Michael.Wa1sh@oig.hhs.gov.     Pleaserefer
                                      refer to
                                             to report
                                                 report number
                                                        number A-03-06-00002
                                                               A-03-06-00002 in all
correspondence.




                                                             ).-~ ~.
                                                              Sincerely,



                                                              Stephen Virbitsky
                                                              Regional Inspector General
                                                                for Audit Services

Enclosure
Page
Page 2 -- Mr. Bil Stack
          Mr. Bill Stack





Direct Reply to HHS Action Official:

Ms. Nanette
Ms. Nanette Foster
              Foster Reilly,
                      Reilly, Consortium Administrator
Consortium forfor Financial Management & & Fee for Service Operations
Centers for
Centers for Medicare
            Medicare and Medicaid Services
601 East
601      1ihth Street,
    East 12    Street, Room 235
Kansas City,
Kansas  City,Missouri
                Missour 64106
Department of Health and Human Services
 

             OFFICE OF 

        INSPECTOR GENERAL 





    REVIEW OF CAREFIRST 

  BLUE CROSS/BLUE SHIELD OF 

  MARYLAND MEDICARE PART A
 

    FINAL ADMINISTRATIVE
 

  COST PROPOSALS FOR FISCAL 

      YEARS 2003 - 2005 





                     Daniel R. Levinson
 

                      Inspector General 


                       February 2009
 

                       A-03-06-00002
 

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND

Medicare Program

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people 65 years of age and older, people under 65 with certain disabilities,
and people of all ages with end-stage renal disease (permanent kidney failure requiring a kidney
transplant or dialysis). Medicare Part A provides coverage for inpatient hospital care, post-
hospital extended care, and post-hospital home health care. Medicare Part B is an optional
medical insurance program that covers physician services, hospital outpatient services, home
health care not related to a hospital stay, and other health services.

The Centers for Medicare & Medicaid Services (CMS) administers the Medicare program.
During our audit period, CMS contracted with intermediaries for Part A and carriers for Part B,
usually large insurance companies, to assist in administering the programs. CMS pays
intermediaries and carriers for all reasonable and allowable costs incurred in administering the
programs.

CareFirst Blue Cross/Blue Shield of Maryland

CMS contracted with CareFirst Blue Cross & Blue Shield of Maryland (CareFirst) to serve as the
Part A intermediary responsible for processing all Maryland Part A claims. CareFirst and CMS
negotiated an annual budget for all allowable costs related to the administration of this program.
The costs are claimed for reimbursement on the final administrative cost proposal (cost
proposal). The cost proposals and supporting data serve as the basis for the final settlement of
allowable administrative costs. For the period October 1, 2002, through September 30, 2005,
CareFirst claimed administrative costs of $31,320,164.

In July 2005, CareFirst exercised its contractual option to terminate participation as a Medicare
contractor for Part A and notified CMS accordingly. Both CareFirst and CMS agreed this
termination would be effective on September 30, 2005.

OBJECTIVE

Our objective was to determine whether the administrative costs that CareFirst claimed in its cost
proposals complied with applicable Federal requirements and CMS contract provisions.

SUMMARY OF FINDINGS

From October 1, 2002, through September 30, 2005, CareFirst generally claimed costs in
accordance with Federal requirements and CMS contract provisions. However, CareFirst’s
claims included costs totaling $67,017 that were not allowable for Medicare reimbursement as
follows:




                                                 i
   •	 $31,242 for salary and related expenses that were not fully supported by adequate 

      documentation for fiscal years (FY) 2003 and 2004; 


   •	 $21,878 for salaries that exceeded the executive compensation cap determined by 

      Federal guidelines for FY 2005; 


   •	 $13,749 in accounting adjustment errors for FYs 2003 through 2005; and

   •	 $148 in math errors on timesheets that caused overpayments during FY 2003.

CareFirst had controls in place but did not always follow them to properly identify and support
costs claimed.

RECOMMENDATION

We recommend that CareFirst reduce the costs claimed on its cost proposals by a total of
$67,017 for overpayments identified for FYs 2003 through 2005 (see Appendix A).

CAREFIRST COMMENTS

In its comments to our draft report, CareFirst concurred with all of our findings totaling $67,017.
CareFirst’s comments are included as Appendix C.




                                                 ii
                                                 TABLE OF CONTENTS
 


                                                                                                                                 Page
 


INTRODUCTION......................................................................................................................1 


          BACKGROUND .............................................................................................................1         

              Medicare Program................................................................................................1             

              CareFirst Blue Cross & Blue Shield of Maryland Medicare Contract ................1 


          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2 

               Objective ..............................................................................................................2    

               Scope....................................................................................................................2   

               Methodology ........................................................................................................2        


FINDINGS AND RECOMMENDATION...............................................................................3 


          FEDERAL REGULATIONS...........................................................................................3                   


          SALARY AND RELATED EXPENSES........................................................................4 

               Fiscal Year 2003 ..................................................................................................4         

               Fiscal Year 2004 ..................................................................................................4         


          EXECUTIVE COMPENSATION...................................................................................4                        


          ACCOUNTING ADJUSTMENT ERRORS ...................................................................5 


          TIMESHEET MISCALCULATIONS.............................................................................5                           


          RECOMMENDATION ...................................................................................................5               


          CAREFIRST COMMENTS ............................................................................................6                  


APPENDIXES

          A – CAREFIRST OF MARYLAND, INC. MEDICARE PART A 

              FINAL ADMINISTRATIVE COST PROPOSALS AND OFFICE OF 

              INSPECTOR GENERAL RECOMMENDED AUDIT ADJUSTMENT 


          B – UNSUPPORTED SALARIES AND RELATED EXPENSES FOR 

              FISCAL YEARS 2003 AND 2004 


          C – CAREFIRST COMMENTS




                                                                   iii
                                            INTRODUCTION 


BACKGROUND

Medicare Program

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people 65 years of age and older, people under 65 with certain disabilities,
and people of all ages with end-stage renal disease (permanent kidney failure requiring a kidney
transplant or dialysis). Medicare Part A provides coverage for inpatient hospital care, post-
hospital extended care, and post-hospital home health care. Medicare Part B is an optional
medical insurance program that covers physician services, hospital outpatient services, home
health care, and other health services.

The Centers for Medicare & Medicaid Services (CMS) administers the Medicare program.
During our audit period, CMS contracted with intermediaries for Part A and carriers for Part B,
usually large insurance companies, to assist in administering the programs. 1 CMS pays
intermediaries and carriers for all reasonable and allowable costs incurred in administering the
programs.

CareFirst Blue Cross & Blue Shield of Maryland Medicare Contract

CMS contracted with CareFirst Blue Cross & Blue Shield of Maryland (CareFirst) to serve as the
Part A intermediary responsible for processing all Medicare Part A claims in Maryland.
CareFirst’s administrative costs were reimbursed under the terms of its contract with CMS.
Specifically, Appendix B of the contract set forth principles of reimbursement for administrative
costs and references Federal regulations, primarily Part 31 of the Federal Acquisition Regulation
(FAR) that identify allowable administrative costs.

CareFirst and CMS negotiated an annual budget for all allowable costs, which are claimed for
reimbursement on the final administrative cost proposal (cost proposal). The cost proposal and
supporting data serve as the basis for the final settlement of allowable administrative costs at the
end of each fiscal year (FY).

In July 2005, CareFirst exercised its contractual option to terminate participation as a Medicare
contractor and notified CMS accordingly. Both CareFirst and CMS agreed that this termination
would be effective on September 30, 2005. CMS agreed to reimburse costs related to the
termination process under a separate agreement. We reviewed the allowability of the termination
costs in a separate audit. 2


1
 Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. 108-173,
transitioned the governance of Medicare administration contracts to section 1847A of the Act effective
October 1, 2005.
2
 “Review of Severance and Termination Costs Claimed by CareFirst Blue Cross/Blue Shield of Maryland for the
Period October 2005 Through December 2006,” issued January 9, 2008 (report number A-03-07-00022).


                                                       1

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the administrative costs that CareFirst claimed in its cost
proposals complied with applicable Federal requirements and CMS contract provisions.

Scope

Our review covered the period from October 1, 2002, through September 30, 2005. For this
period, CareFirst reported to CMS administrative costs of $31,320,164 on its cost proposals (see
Appendix A). We performed a limited review of CareFirst’s internal controls to obtain an
understanding of accounting policies and procedures relevant to the audit objectives and not to
provide assurances on the internal control structure.

We performed our fieldwork at the offices of CareFirst Blue Cross & Blue Shield of Maryland in
Owings Mills, Maryland, and the data center in Columbia, Maryland, from November 2005
through October 2006.

Methodology

To accomplish our objective, we

   •	 reviewed Federal requirements, including the Federal Acquisition Regulations, and
      Office of Management and Budget (OMB) guidance;

   •	 reviewed CareFirst’s policies and procedures;

   •	 reviewed contracts between CareFirst and CMS;

   •	 obtained an understanding of the accounting system regarding how costs reported on the
      cost proposal correlated to all costs;

   •	 reconciled the cost proposal with the accounting records and reviewed direct charge,
      payroll documents, and the basis for allocating certain indirect costs;

   •	 reviewed executive compensation calculations to verify that salaries claimed were under
      the cap as mandated by Federal guidelines;

   •	 analyzed source documents for complementary insurance credits to ensure that CareFirst
      complied with related policies and credits due Medicare were properly included in the
      cost proposals;




                                                2

   •	 tested 394 judgmental selected costs items such as payroll, building, depreciation, 

      subcontract, equipment, training, and travel; and 


   •	 communicated with regional CMS officials throughout the course of the audit.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATION

From October 1, 2002, through September 30, 2005, CareFirst generally claimed costs in
accordance with Federal requirements and CMS contract provisions. However, CareFirst’s cost
proposals included costs totaling $67,017 that were not allowable for Medicare reimbursement as
follows:

   •	 $31,242 for salary and related expenses that were not fully supported by adequate 

      documentation for FY 2003 and 2004; 


   •	 $21,878 for salaries that exceeded the executive compensation cap determined by 

      Federal guidelines for FY 2005; 


   •	 $13,749 in accounting adjustment errors for FYs 2003 through 2005; and

   •	 $148 in math errors on timesheets that caused overpayments during FY 2003.

CareFirst had controls in place but did not always follow them to properly identify and support
costs claimed.

FEDERAL REGULATIONS

FAR 31.201-2(d) states that:

   [a] contractor is responsible for accounting for costs appropriately and for 

   maintaining records, including supporting documentation, adequate to demonstrate 

   that costs claimed have been incurred, are allocable to the contract, and comply with 

   applicable cost principles in this subpart and agency supplements. The contracting 

   officer may disallow all or part of a claimed cost which is inadequately supported. 





                                                3

SALARY AND RELATED EXPENSES

During FYs 2003 and 2004, CareFirst charged to Medicare $29,862 in direct and $1,380 in
indirect salaries and related expenses, for a total of $31,242 in salaries and related expenses for
which it did not provide adequate documentation. Appendix B reflects the monetary effect of the
unsupported costs for salary and related expenses considering the rates allocated to Medicare.

Fiscal Year 2003

Direct Costs for Salaries

CareFirst was unable to provide timesheets for a payroll sample of $1,801.

Indirect Costs for Salaries and Related Expenses

CareFirst was unable to provide any support for a payroll expense of $92,170. The amount
charged to Medicare for this expense was $1,078, or 1.17 percent.

CareFirst was unable to locate a timesheet that would have provided evidence of the time the
employee worked and approval of that time to support the employee's salary of $2,867 for that
pay period. CareFirst charged to Medicare $221, or 7.7 percent, of the employee’s salary.

Fiscal Year 2004

Direct Salaries and Related Expenses

CareFirst was unable to provide timesheets to support a payroll expense of $21,309. CareFirst
was also unable to provide any support for a Federal Insurance Contributions Act (FICA) tax
expense of $5,161.

CareFirst was also unable to provide a timesheet that would have provided proof of the time an
employee worked and evidence that the time worked was approved. The timesheet would have
provided documentation to support the employee’s salary of $1,591 for that pay period.

Indirect Salaries and Related Expenses

CareFirst was unable to provide timesheets for a payroll sample of $4,099. The amount charged
to Medicare for this expense was $81, or 1.97 percent.

EXECUTIVE COMPENSATION

Pursuant to section 39 of the Office of Federal Procurement Policy Act (41 U.S.C.§ 435), as
amended, OMB established $473,318 as the maximum ‘‘benchmark’’ compensation amount




                                                4

allowable under Government contracts for FY 2005. 3 The benchmark compensation amount
applies equally to both defense and civilian procurement agencies.

Our review of executive compensation disclosed that CareFirst underreported a credit due CMS,
totaling $21,878, on its 2005 cost proposals. CareFirst should have reported a credit of $31,878
for salaries over the mandated salary cap of $473,318 for the top five executives. Instead,
CareFirst reported $10,000. CareFirst calculated the credit correctly on its accounting
worksheets but posted the incorrect amount on the cost proposal. Our follow-up conversation
with accounting staff disclosed that the $10,000 reported on the cost proposal was a preliminary
estimated amount that should have been corrected to reflect the actual credit of $31,878. As a
result, CareFirst overstated expenses on the cost report by $21,878.

ACCOUNTING ADJUSTMENT ERRORS

Our review of yearend manual accounting adjustments identified eight discrepancies on the cost
proposals for FYs 2003, 2004, and 2005 that resulted in overpayments totaling $13,749. The
eight discrepancies involved both positive and negative amounts. There were four errors in FY
2003 amounting to ($3,920); one error in FY 2004 for $323; and three errors in FY 2005
amounting to $17,346. For these discrepancies, CareFirst’s Accounting Department made
incorrect postings to the yearend manual worksheets.

For example, for one of the three errors CareFirst made a payment of $13,181 in FY 2004 and
recorded it in the FY 2004 yearend adjustments. CareFirst also included the payment in the FY
2005 expenses; however, there was no follow-up adjustment in FY 2005.

TIMESHEET MISCALCULATIONS

CareFirst miscalculated hours recorded on timesheets which resulted in an overpayment on the
FY 2003 cost proposal. Based on a detailed review of timesheets for a sample of direct salary
expenses, the hours paid sometimes exceeded the actual hours worked as calculated. We found
seven overpayments totaling $148.

The respective departments did not adequately ensure the weekly hourly postings were reflective
of the actual times in and out as noted on the timesheets. The matter was discussed with officials
of the payroll department.

RECOMMENDATION

We recommend that CareFirst reduce the costs claimed on its cost proposals by a total of
$67,017 for overpayments identified for FYs 2003 through 2005 (see Appendix A).




3
    70 Fed. Reg. 23888, 23889 (May 5, 2005).


                                                5

CAREFIRST COMMENTS

In its comments to our draft report, CareFirst concurred with all of our findings totaling $67,017
and stated that the disallowed costs will be included in the final resolution process.




                                                6

APPENDIXES
                                                                                                  APPENDIX A 




                                   CAREFIRST OF MARYLAND, INC. 

                                        MEDICARE PART A 


                           FINAL ADMINISTRATIVE COST PROPOSALS 

                             AND OFFICE OF INSPECTOR GENERAL
 

                             RECOMMENDED AUDIT ADJUSTMENT
 


                                          Fiscal Year         Fiscal Year         Fiscal Year            Total
          Cost Category                      2003                2004                2005            Costs Claimed

Salaries/Wages                             $5,912,959          $5,798,554         $5,978,227          $17,689,740
Overtime & Temporary Help                     180,641             264,835            395,292             $840,768
Fringe Benefits                             1,464,259           1,652,057          1,662,540           $4,778,856
Facilities or Occupancy                       587,522             576,722            645,715           $1,809,959
EDP Equipment                                 276,433             317,777            357,134             $951,344
Subcontractors                                115,165             146,594            109,468             $371,227
Outside Prof. Services                        918,537             945,861          1,113,588           $2,977,986
Telephone & Telegraph                         170,363             130,562            132,611            $433,536
Postage & Express                             463,911             492,695            496,274           $1,452,880
Furniture & Equipment                          65,349              48,201             44,220             $157,770
Materials & Supplies                          130,845             124,566            122,508             $377,919
Travel                                        141,553             135,822            100,495            $377,870
Return on Investment                           22,589              34,267             48,735            $105,591
Miscellaneous                                 136,084              70,412            113,306             $319,802
Comp. Credits                                (475,140)           (550,209)          (641,731)         ($1,667,080)
Consulting                                     34,191              19,507            286,481             $340,179
Legal Fees                                     (7,321)                757              1,025              ($5,539)
Forward Funding                                     0               7,353                  0               $7,353

Total Costs Reported on Final
 Administrative Cost Proposal            $10,137,940          $10,216,333        $10,965,888          $31,320,161 1

Office of Inspector General
 Recommended Disallowance                        ($672)            $28,465            $39,224              $67,017

Office of Inspector General
 Recommended for Acceptance              $10,138,612          $10,187,868        $10,926,664          $31,253,144




  1
   Actual costs claimed on the Final Administrative Cost Proposals equaled $31,320,164. Difference is due to
  rounding.
                                                                    APPENDIX B 





       UNSUPPORTED SALARIES AND RELATED EXPENSES FOR 

                 FISCAL YEARS 2003 AND 2004
 



            Table 1: Unsupported Salary and Related Expenses 


                                Amount        Percent         Amount
       Sample                     Not        Applicable         Not
         Type       Year       Supported    to Medicare       Allowed
     Direct         2003        $1,801          100           $1,801
     Indirect       2003         2,867          7.70             221
     Indirect       2003        92,170          1.17           1,078
     Direct         2004         5,161          100            5,161
     Direct         2004         1,591          100            1,591
     Direct         2004        21,309          100           21,309
     Indirect       2004         4,099          1.97              81
       Total                  $128,998                       $31,242


                     Table 2: Direct Only - By Year

                                      Percent          Amount
 Sample              Amount Not     Applicable to        Not       Total for
  Type      Year      Supported      Medicare          Allowed      Year
Direct      2004        $5,161          100             $5,161
Direct      2004         1,591          100               1,591
Direct      2004        21,309          100             21,309     $28,061
Direct      2003         1,801          100               1,801      1,801
  Total                $29,862                         $29,862     $29,862

                    Table 3: Indirect Only – By Year

                     Amount Not       Percent         Amount Not
 Sample               Supported     Applicable to      Allowed     Total for
  Type      Year                     Medicare                       Year
Indirect    2003        $2,867         7.70              $221
Indirect    2003        92,170         1.17              1,078      $1,299
Indirect    2004         4,099         1.97                 81          81
  Total                $99,136                          $1,380      $1,380
                                                                                                                                       APPENDIX C
                                                                                                                                         Page 1 of 3


CareFirst BlueCross BlueShield
10455 Mill Run Circle
Owings Mills, MD 21117




January 15, 2009                                                                                         V=1-4.
                              L._.                                                 -'
                                                                                                     Carel1rst..y~
                                                                                                     BlueCross BlueShield


Stephan Virbitsky
Regional Inspector General
 for Audit Services
Office of Inspector General
1505 Independence Mall West, Suite 316
Philadelphia, PA 19106-3499

Dear Mr. Virbitsky:

CareFirst BlueCross BlueShield of Maryland (CFMI) is in receipt of Draft Report A-03-06-
00002, entitled "Review of CareFirst BlueCross/BlueShield of Maryland Medicare Part A
Final Administrative Cost Proposals for Fiscal Years 2003 - 2005." The report lists $67,017 of
costs that are not allowable for Medicare reimbursement. The report requests CFMI to
provide a statement of concurrence or non-concurrence with each recommended
disallowance.

   •   For each concurrence, include a statement describing the nature of the corrective
       action taken or planned
   •   For each non-concurrence, include specific reasons for the non-concurrence and a
       statement of any alternative corrective action taken or planned.

SUMMARY OF FINDINGS

   •   $31,242 for salary and related expenses that were not fully supported by adequate
       documentation for fiscal years (FY) 2003 and 2004;

       CFMI Response - CFMI concurs with this finding. No corrective action required due
       to termination of Medicare contract on September 30, 2005.

   •   $21,878 for salaries that exceeded the executive compensation cap determined by
       Federal guidelines for FY 2005;

       CFMI Response - CFMI concurs with this finding. No corrective action required due
       to termination of Medicare contract on September 30,2005.




                                     CareFirst BlueCross BlueShield Is lhe shared business name of CareFirst of Maryland. Inc. and Group HospilaJization
                                               and Medical Services, Inc. which are inI:Iependenllicensees oIll'1e Blue Cross and Slue Sh:e1d Association.
                                                                                  «l Registered lradematk. Of the Blue Cross and Blue Shield Association.
                                                                                                    <!P' Registered trademalit of CareFirsl of Maryland. Inc
                                                                                                                                  APPENDIX C
                                                                                                                                    Page 2 of 3




   •   $13,749 in accounting adjustment errors for FY 2003 through 2005; and

       CFMI Response - CFMI concurs with this finding. No corrective action required due
       to termination of Medicare contract on September 30, 2005.

   •   $148 in math errors on timesheets that caused overpayments during FY2003.

       CFMI Response - CFMI concurs with this finding. No corrective action required due
       to termination of Medicare contract on September 30, 2005.

OIG RECOMMENDATION

      OIG recommends CareFirst of Maryland reduce the costs claimed on its cost
proposals by a total of $67,017 for overpayments identified for FYs 2003 through 2005.

       CFMI Response - CFMI concurs with this recommendation. Please be advised that
this $67,017 of disallowed costs will be included in the final resolution process. See the
attached summary (Attachment A) of audited costs, after considering this $67,017 of
disallowed costs, showing that CFMI is still owed $363,540 of costs that have not been
drawn.

Should you have any questions on this response, please feel free to contact me on 410-998-
4839 or contact Charlie Reip on 410-998-7207.




~~
Assistant General Auditor

Enclosure:

cc: Charles Reip, Manager - Management Reporting
    Michael Walsh, Audit Manager, OIG




                                 CareArst BlueCfoss BlueShield is lhe shared business name of CareFlrsl of Maryland. Inc. and Group HospllaK:zation
                                          and Medical Services, Inc. whidl are independent licensees of the Blue emss and Blue Shield Association.
                                                                             €) RegIstered traderrart<. of the Blue Cross and Blue Shield Association.
                                                                                              ~' Reglste.ed trademark or CareFirst of Maryland. Inc.
                                                                                                                                                      AITACHMENT A

                                                 CareFirst of Maryland, Inc.
                                           Medicare Part A Program Cost Analysis
                                 For the Period October 1, 2002 through September 31, 2005


                             ORIGINAL FINAL            ORIGINAL FINAL WIWESMD
            FY                   FACP                           FACP                                           DRAW                                              NOSA


           2003:                  #02                           #02                                                                                                 #19
           PM                            $4,930,957                    $4.930,957                                        $4,930,957                                     $4,930,957
           MIP                           $5,133,649                    $5,133,649                                        $5,133,649                                     $5,133,649
        WIWEBMD                                  $0                       $73,333                                                     $0                                             $0
         Rounding                                $0                            $1                                                     $0                                             $0

          TOTAL                         $10,064,606                   $10~137,940                                      $10,064,606                                  ~064,608




           2004:                  #01                           #01                                                                                                 #12
            PM                           $5.312,644                    $5,312,644                                        $5.312,644                                   $5,479.700
           MIP                           $4,618,515                    $4,818,515                                        $4,818,515                                     $4.876,700
        WIWEBMD                                  $0                       585,175                                                     $0                                             $0
         Rounding                                $0                           -$1                                                     $0                                             $0

          TOTAL                         510,131,159                   $10-;216,333                                     $10,131,169                                  ~400




           2005:                  #00                           #00                                                                                                 #08
            PM                           $5,507,302                    $5.507,302                                        $5,344,828                                     $5,543,943
            MIP                          $4,989,923                    $4,989.923                                        $4,915,804                                     $4,986,577
        Transition                         $390,755                      5390.755                                          $200,000                                       $200,000
           MMA                                   $0                            $0                                                     $0                                     $30.000
        WIWEBMD                                  $0                       $77,908                                                     $0                                          $0
         Rounding                                $0                               $0                                                  $0                                          $0
      Additional Draw                                                                                                     $233.207
          TOTAL                         $10,887,980                   $10;965.888                                      $10,693,839                                    $10,760,520


Fiscal Year'S 2003-2005                 $31,[J83;T45                  $31,320,161                                      $30,889,604                                    $31,181,626


   OIG Recommended
      Disallowance                                      $             (67,017.00)


Audited/Adjusted FACP Cost                              $         31,253.144.00                                        $30,889,604                                    $31,181,526


Additional Amount Owed to
  CFMI not drawn to date                                                $363,540




                                                                                                                                                                                                APPENDIX C
   Amount In Excess of
    Approved NOBA                                                                                                                                                            $71,618




                                                                                                                                                                                                  Page 3 of 3
                                                                        CareFirst BlueCross Blu@ShleidlsthesharedbuslnessnameofCareFlrstofMaryiand, Inc. and Group Hospitalization
                                                                                  and Medical Services, Inc. which are Indepcnd@nt licensees of the Blue Cross and Blue Shield Association.
                                                                                                                     €> Registered lrademari< of the Blue Cross and Blue Shield AssOCiation.
                                                                                                                                      €)' Registered trademark or CareFirst of Mal)iand, Inc.
